No. 20-804
IN THE SUPREME COURT OF THE UNITED STATES
_________________
HOUSTON COMMUNITY COLLEGE SYSTEM, PETITIONER
v.
DAVID BUREN WILSON
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES AS AMICUS CURIAE SUPPORTING
PETITIONER, via email and first-class mail, postage prepaid, this 21st day of July, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6,436
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
July 21, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
July 21, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0804
HOUSTON COMMUNITY COLLEGE SYSTEM
DAVID BUREN WILSON
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM

VIA EMAIL

RICHARD A. MORRIS
ROGERS, MORRIS & GROVER, L.L.P.
5718 WESTHEIMER ROAD
SUITE 1200
HOUSTON, TX 77057
713-960-6019
MORRIS@RMGLLP.COM

VIA EMAIL

MEREDITH PRYKRYL WALKER
WALSH GALLEGOS TREVINO RUSSO & KYLE
P.C.
105 DECKER COURT
SUITE 700
IRVING, TX 75062
214-574-8800
MWALKER@WABSA.COM

